<html>
<title> - TROUBLED SKIES: THE AVIATION WORKFORCE SHORTAGE'S IMPACT ON SMALL BUSINESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   TROUBLED SKIES: THE AVIATION WORKFORCE SHORTAGE'S IMPACT ON SMALL 
                               BUSINESSES

=======================================================================

                                 HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONTRACTING AND WORKFORCE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 26, 2018

                               __________

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                               

            Small Business Committee Document Number 115-090
             Available via the GPO Website: www.govinfo.gov
             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-558                      WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>                             
             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Knight................................................     1
Hon. Stephanie Murphy............................................     2

                               WITNESSES

Mr. Brett Levanto, Vice President of Communications, Aeronautical 
  Repair Station Association, Alexandria, VA.....................     5
Mr. Martin Lenss, Airport Director, The Eastern Iowa Airport, 
  Cedar Rapids, IA...............................................     7
Ms. Sarah Oberman Bartush, Chief Marketing Officer & Director of 
  Business Development, CI Jets, Camarillo, CA...................     8
Mr. Kenneth Withcer, Ph.D., Dean, College of Aeronautics, Embry-
  Riddle Aeronautical University, Daytona Beach, FL, testifying 
  on behalf of the Aerospace Industries Association..............    10

                                APPENDIX

Prepared Statements:
    Mr. Brett Levanto, Vice President of Communications, 
      Aeronautical Repair Station Association, Alexandria, VA....    20
    Mr. Martin Lenss, Airport Director, The Eastern Iowa Airport, 
      Cedar Rapids, IA...........................................    36
    Ms. Sarah Oberman Bartush, Chief Marketing Officer & Director 
      of Business Development, CI Jets, Camarillo, CA............    40
    Mr. Kenneth Witcher, Ph.D., Dean, College of Aeronautics, 
      Embry-Riddle Aeronautical University, Daytona Beach, FL, 
      testifying on behalf of the Aerospace Industries 
      Association................................................    43
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    AIA - Aerospace Industries Association.......................    49
    Avocet Aviation..............................................    52
    Golden State Air Charter, LLC................................    59
    Helicopter Association International.........................    61
    NATA - National Air Transportation Association...............    64
    NBAA - National Business Aviation Association................    67
    RAA - Regional Airline Association...........................    70

 
   TROUBLED SKIES: THE AVIATION WORKFORCE SHORTAGE'S IMPACT ON SMALL 
                                BUSINESS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                  House of Representatives,
               Committee on Small Business,
         Subcommittee on Contracting and Workforce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Steve Knight 
[chairman of the Subcommittee] presiding.
    Present: Representatives King, Knight, Blum, Evans, Murphy, 
and Clarke.
    Chairman KNIGHT. Good morning. This hearing will come to 
order. Thank you all for coming.
    I would especially like to thank our witnesses for being 
here today. I know some of you came from long distances and it 
is very much appreciated.
    So today's hearing will be a little interesting, but I 
think it is very important to have hearings like this. Aviation 
gets into your blood. There is no doubt about it. As a child, 
we are told that the sky is the limit. I personally believe the 
sky is not the limit, but the Wright Brothers pushed that limit 
in 1903, on my birthday, not the same year, when they flew over 
Kitty Hawk for the first time. These are the families steeped 
in aviation that have developed a passionate network of small 
businesses vital to continuing the existence of worldwide 
commerce and geopolitics as we know it. Fixed based operators, 
overhaul stations, maintenance operators, and other firms in 
aviation are dominated by what many would consider mom and pop 
operations.
    But as Baby Boomers are beginning to retire, the economy 
has begun to feel the strains of their departure. These highly 
experienced and highly skilled employees are leaving the 
industry at an exponentially faster rate than the new labor is 
being brought in.
    Studies and anecdotal evidence show that we are only just 
beginning to experience the first effects of this shortage. 
Reports currently project that by 2027, there will be a 9 
percent fault between supply and demand for aviation mechanics 
and a need to hire hundreds of thousands of new pilots in the 
next 2 decades. With airlines growing and their need for pilots 
and mechanics ever increasing, small businesses are 
particularly vulnerable to losing their workforce at a faster 
rate than their competitors.
    Case in point; this Committee invited the owner of a small 
charter company in my district to testify today. However, this 
small business owner had to cancel his trip at the last minute. 
He was unable to staff enough pilots today and had to fly 
customers him or risk taking financial loss. The Small Business 
Committee does not like financial loss so we were okay with 
that. This Committee has unfortunately lost the opportunity to 
hear his story as a direct result of this shortage.
    In sum, we know far too little about how these shortages 
are impacting the small businesses that support the aviation 
industry. Small businesses have concerns and additional 
complexities that need to be shared and explored. The point of 
this hearing is not only to hear the stories of those having 
boots on the ground, but to also inform those who are entering 
the workforce that aviation is a viable option for their 
future. Our economy needs pilots and mechanics, and our 
witnesses are here to tell their stories they are having about 
hiring people right here, like you, and right now. We look 
forward to your testimony.
    Remember, this testimony is to look at what is happening in 
the economy today, not just from small businesses, but what is 
going to happen in the future. We have talked about several 
things in Small Business and in SST and in other Committees 
about how aviation is going to change in the next 20 years. How 
we are going to be flying across this country at Mach 2, 
probably within 20 years. I would hope it is sooner than that, 
but we have been flying at Mach .7 since 1961 across this 
country and you can see that we are now trying to push this 
envelope forward so that we can do these things. Aviation is 
going to be growing in the movement of goods, in the movement 
of people. We are seeing companies like Amazon--this is my 
personal PSA, it is off the script--but we are seeing companies 
like Amazon that are moving toward moving goods very quickly, 
overnight, in 2 hours in some circumstances in some cities. 
Goods movement and people movement is quickly growing and 
quickly going faster. That is one of the purposes of this 
Committee hearing is that we know this is not 1985 where we 
jump into an L-1011 and we go across country. Aviation is not 
just in our blood but it is everything that we do today as far 
as moving goods and people.
    So now I would like to yield to the Ranking Member, Ms. 
Murphy, for her comments.
    Ms. MURPHY. Thank you, Mr. Chairman.
    While the U.S. economy has improved over the past decade, 
small business owners across the Nation continue to face 
challenges finding skilled, qualified workers. By 2020, it is 
estimated that our economy will have approximately 55 million 
job vacancies, and about 40 percent of those jobs are expected 
to be new openings, while the remaining 60 percent will be jobs 
left vacant by workers from the Baby Boomer generation. And 
this is a staggering projection.
    And today, we are going to focus on the workforce 
challenges facing the aviation industry and its ability to 
recruit and retain qualified workers to occupy jobs across the 
aviation ecosystem. And I think that is a very important topic 
for us to take a look at on this Committee.
    Over 90 percent of the businesses in the aviation industry 
are small businesses involved in airline transportation, air 
transport support, and aviation manufacturing. And these small 
firms provide the support and technical knowhow that is 
necessary to ensure safe plan travel, operations, and 
maintenance.
    The aviation workforce helps communities across the country 
access the global transportation network and generate economic 
activity. For example, in my district, the Orlando Sanford 
International Airport provides economic opportunities to local 
small businesses, it increases local tourism, and it provides 
additional transportation to the traveling public, which is 
particularly important in a destination like Orlando.
    As the demand for air travel continues to increase and 
aircraft engineering becomes more innovative, some in the 
aviation industry have expressed concerns about a growing labor 
shortage.
    And these concerns largely stem from a perceived decline in 
the number of people pursuing certifications in the aviation 
sector, combined with an anticipated increase in the rate of 
Baby Boomer retirements within the next decade.
    And there have also been concerns raised in the past that 
outsourcing has negatively impacted aviation mechanics, so I 
hope to learn from this hearing about ways to mitigate this 
problem.
    Additionally, I want to take a moment to make clear that I 
believe that weakening critical safety regulations would be 
misguided. When it comes to our pilot supply, it is important 
that we focus our efforts on getting more young people excited 
about the aviation profession and making financial aid for 
their training more accessible.
    From 2001 to 2009, we had six fatal crashes in regional 
airlines, and since the new safety rules were implemented, we 
have had zero. And so I think those results speak for 
themselves.
    While the impact of aviation workforce shortages on small 
business is largely underreported and more data needs to be 
compiled to provide us with a more holistic understanding of 
the issue, I think the potential effect will ripple across the 
aviation industry and have broader implications for the U.S. 
economy. And today's testimony from our witnesses will help to 
inform us about the steps that can be taken to ensure our 
country's vital aviation industrial base is strong and 
sustainable.
    So I thank the witnesses for being here and look forward to 
hearing how we can help support our aviation workforce and 
ensure America's small businesses are empowered to move our 
economy forward.
    Thank you, Mr. Chairman, and I yield back the remainder of 
my time.
    Chairman KNIGHT. Thank you very much.
    And now we will introduce our witnesses.
    First, I would like to introduce Mr. Brett Levanto, Vice 
President of Operations for Obadal, Filler, MacLeod, and Klein, 
and Vice President of Communications for the Aeronautical 
Repair Station Association (ARSA). Mr. Levanto has been 
immersed in public engagement and service throughout his 
personal and professional life, actively volunteering in 
support of aviation, military, and veteran services, and 
previously working as a civilian consultant to the Marine 
Corps. At OFM&K, Mr. Levanto's primary focus is on workforce 
development, airman certification, and training matters.
    We welcome you today.
    Now, I would like to yield to Mr. Blum for Mr. Lenss 
introduction.
    Mr. BLUM. Thank you, Chairman Knight.
    I am proud to introduce our second witness, Mr. Martin 
Lenss. Mr. Lenss is the Director of the Eastern Iowa Airport in 
Cedar Rapids, located within my district. He has 25 years of 
airport experience, including having held similar positions at 
regional airports in Minnesota and Wisconsin--and we will not 
hold that against you, Marty. Mr. Lenss has created, organized, 
and led a regional economic development forum on the pilot 
shortage, focusing on impacts to Iowa's communities, and led 
one of the first multistate airport forums on the pilot 
shortage issue.
    Thank you for sharing your time with us today, Marty, and 
we look forward to your testimony.
    And I yield back, Mr. Chairman.
    Chairman KNIGHT. Thank you very much.
    Our third witness, Ms. Sarah Oberman Bartush. Ms. Bartush 
is the Chief Marketing Officer and Director of Business 
Development for CI Jets, the executive jet charter division of 
Channel Islands Aviation located in Camarillo, California. Ms. 
Bartush started her career managing the flight school at 
Channel Islands Aviation founded by her parents in 1976. Since 
then, she has obtained nearly every certificate or approval for 
a flight school in the State of California, and created the 
Youth Aviation Academy in 2012, to inspire youth to pursue 
careers in aviation. Ms. Bartush is currently involved in pilot 
recruitment, aircraft management, charter sales, and marketing, 
while also supervising operation of Channel Islands Aviation 
Flight School.
    We welcome you here today.
    Now, I would like to yield to the Ranking Member for our 
fourth witness.
    Ms. MURPHY. It is my pleasure to introduce Dr. Ken Witcher, 
the Dean of the College of Aeronautics at Embry-Riddle 
Aeronautical University in Daytona Beach, right up the street 
from my district. Dr. Witcher's aviation experience includes 20 
years of service in the United States Air Force, during which 
he was superintendent of an operational test and evaluation 
squadron and field training detachment chief for multiple 
aircrafts and supporting systems. Dr. Witcher previously served 
as chair of the Nevada Aerospace and Defense Sector Council, 
reporting directly to the Governor's Workforce Investment 
Board. He received a Masters of Aeronautical Science from 
Embry-Riddle Aeronautical University and a Doctorate in 
Philosophy in Business Administration with a focus in Aviation 
Science and Public Administration from North Central 
University. He is testifying on behalf of the Aerospace 
Industry Association today.
    Welcome, Dr. Witcher, and thank you for your service.
    Chairman KNIGHT. Okay. Okay. So a couple housekeeping. Upon 
hearing that this Subcommittee would be meeting on this issue 
today, professional aviation organizations reached out to my 
office and this committee asking to submit letters for the 
record. Organizations such as Helicopter Association 
International, National Business Aviation Association, the 
Regional Airlines Association, and the National Air 
Transportation Association felt as though their small business 
members were uniquely impacted and had specific concerns that 
needed to be part of the proceedings today. At this time, I 
would like to submit copies of their letters for the record.
    If Committee members have an opening statement prepared, I 
ask that they be submitted for the record.
    I would like to take a moment to explain what those lights 
are in front of you and what they are going to be doing. You 
will each have 5 minutes to testify today. As the yellow light 
comes on you have a minute. And then as Chairman Chabot always 
says, when you have the red light comes on that means start 
wrapping it up. So we will be very flexible today and we would 
like to hear your testimony. So just kind of take that with a 
grain of salt.
    Okay. Let's move on. And we are going to start witnesses. 
Mr. Levanto, you can start, and you have 5 minutes.

STATEMENTS OF BRETT LEVANTO, VICE PRESIDENT OF COMMUNICATIONS, 
AERONAUTICAL REPAIR STATION ASSOCIATION; MARTIN LENSS, AIRPORT 
  DIRECTOR, THE EASTERN IOWA AIRPORT; SARAH OBERMAN BARTUSH, 
CHIEF MARKETING OFFICER & DIRECTOR OF BUSINESS DEVELOPMENT, CI 
  JETS; KENNETH WITCHER, PH.D., DEAN, COLLEGE OF AERONAUTICS, 
              EMBRY-RIDDLE AERONAUTICAL UNIVERSITY

                   STATEMENT OF BRETT LEVANTO

    Mr. LEVANTO. Thank you very much, Chairman Knight, Ranking 
Member Murphy. I will be loyal to my 5 minutes because I am 
dangerous if given leeway when it comes to time limits.
    Thank you for having this discussion and involving the 
Aeronautical Repair Station Association, an organization that 
represents businesses from across the aviation industry 
performing work and operating international and U.S. civil 
aircraft around the world, and also performing work on 
government contracts and military equipment. In addition to the 
core independent repair stations, these are organizations 
bearing certification from the U.S. FAA or other international 
aviation authorities. ARSA also represents and works with 
manufacturers, parts producers, airlines and other operators, 
in addition to service providers and industry stakeholders to 
maintain and perform work across the entire aviation system.
    These companies form an international and interconnected 
industry that in the United States employs nearly 300,000 
Americans and produces $47 billion in annual economic activity. 
The Subcommittee is well represented. The seven states on this 
body employ nearly 80,000 men and women who generate $12 
billion annually in economic activity. That means that those 
seven states represent more than a quarter of employment in the 
economy of aviation maintenance and parts production services.
    For these businesses, recruitment and retaining of skilled, 
technical individuals to perform work on aircraft has become 
the industry's most pressing, strategic challenge. It involves 
itself in every discussion and has become a part of doing 
business. Now, the industry structure might be interesting to 
most of the general public who view aviation as the bastion of 
big businesses and large organizations from whom they buy 
tickets and with whom they ship goods.
    But the reality is that small businesses are the rule. 
ARSA's data indicates that the average repair station employs 
just 46 people, and that number is inflated by the few large 
players in the market such that the typical repair station is 
actually much smaller. They operate in small teams, using high-
tech capabilities to perform a specialized set of tasks and 
passing both savings and increased quality onto their customers 
in civil industry and the government, and on to the flying 
public and the entire American community.
    The aviation market is a hopeful one. ARSA's members plan 
to capitalize on expanding growth and hopeful future workforce 
projections by adding to their own workforces. However, they 
have reported for years now nearly unanimous difficulty in 
finding and retaining technically skilled workers. That work 
does require a high level of skill, not just from certificated 
personnel, but from different kinds of technicians with varying 
levels of experience and responsibility and specialized 
technical abilities in order to perform work on civil aircraft 
and articles. Continuing the capabilities of this workforce 
requires robust employer-managed training programs, not just to 
onboard personnel, which can take years in terms of creating a 
useful and profitable technician in the workplace, but also to 
maintain continuing skills and technical capabilities to keep 
up with advancing technologies and meet customer demands to 
keep aircraft airworthy.
    The greatest challenge facing this workforce was touched on 
by Ranking Member Murphy in her opening remarks, and that is 
that technician skills are attractive across every high-tech 
industry, all of which are suffering to find personnel to fill 
vacancies. That means that small aviation businesses, which is 
four out of five of the 4,000 firms in the United States, must 
compete for talent against the automotive, heavy equipment, and 
even amusement park industry for personnel who find their 
skills to be attractive. Considering the high demands and 
personal responsibility placed on aviation workers, this is a 
tough pull for small businesses who have tight margins and 
heavy regulatory burdens of their own.
    The impact is strong. ARSA's analysis indicates that right 
now the open technical positions at U.S. repair stations are 
already costing the industry $2 billion a year and forcing 
businesses to increase time to complete their work, delay 
accepting new orders, delay facility expansions, and even 
rejecting new work opportunities.
    The stark reality of this is as you mentioned, Chairman 
Knight, projections do not even indicate that we are already in 
a point of a workforce shortage. Our own data indicates that 
the year 2022 is our year of reckoning because that is when 
supply of available technicians will officially fall short of 
demand from industry and will continue growing worse 
thereafter. Considering that the numbers do not even show that 
we are in a shortage yet and we are already suffering so 
greatly at the challenge of finding technical talent, I think 
it is clear that the industry is facing a gathering storm.
    ARSA and its members look forward to working with you to 
continue to foster industry and government collaboration, 
stimulate investment in technical training, develop and nurture 
technical skills and a cultural appreciation for hands-on work, 
and establish robust aviation career pathways for certificated 
mechanics and noncertificated technicians in order to help 
remind the world that it cannot fly without us.
    Thanks very much.
    Chairman KNIGHT. Thank you very much.
    And Mr. Lenss, you now have 5 minutes.

                   STATEMENT OF MARTIN LENSS

    Mr. LENSS. Good morning. And thank you, Chairman Knight and 
Ranking Member Murphy, and members of the Subcommittee. And 
special thank you for Congressman Blum for the kind 
introduction.
    It is a privilege to testify about the most pressing threat 
facing aviation today. Often lost in this discussion about the 
shortage of pilots and aviation mechanics is the impact this 
problem has on local economies. Thank you for including an 
airport in a small community perspective in this discussion 
today.
    Now, airports do not train, we do not hire, and we do not 
employ pilots or technicians, but we certainly depend on them. 
Pilots in the entire aerospace industry enable our communities 
to be connected, and connectivity to the national 
transportation system is essential to ensure both our local 
communities and small businesses remain vibrant.
    The Iowa City/Cedar Rapids region is known as ICR Iowa. It 
includes seven counties and is home to half a million people. 
ICRI was also home to several key economic drivers. To name a 
few: Rockwell Collins, Transamerica, World Class Healthcare, 
ACT. Maybe many of you took the ACT exam to get into college. 
Procter & Gamble, Cargill, Quaker Oats, CRST International, and 
of course, our beloved Hawkeyes at the University of Iowa. CID 
is very proud to connect these entities to the world.
    As important though are the many small businesses which 
make these major employers successful. These are suppliers, 
vendors, contractors, customers, and others, all depend on 
CID's air service directly or indirectly. The shortage of 
pilots is threatening this service, and therefore, these jobs. 
The pilot shortage is very real and it is here now. The U.S. is 
not producing nearly enough pilots to meet industry's needs. 
Less than half the need is met each year. Passenger traffic is 
increasing, yet our departures nationally are decreasing. 
Despite a strong economy, service continues to shrink and CID 
is just a microcosm of this. The Eastern Iowa Airport, we are 
on pace for a record year in passengers this year. Our 
unemployment rate is now under 3 percent, but our departures 
are down 7 percent. Clearly something more is going on when 
your economy is this robust and airlines are reducing service.
    Frequent, reliable air service is critical for local 
business. It keeps us connected to the global business system. 
At CID, we can only withstand so many cuts before our employers 
are negatively impacted. According to a survey conducted by 
Iowa DOT, the top three issues affecting business decisions to 
expand or relocate your communities are workforce, taxes, and 
air service. To build on the air service a little bit more, 
Peoria, Illinois, recently lost a key economic driver when 
nearly after a century Caterpillar moved its corporate 
headquarters from Peoria to Chicago for better transportation. 
In 2011, Chiquita left Cincinnati for Charlotte. In 2013, 
Archer Daniels Midland announced it was leaving Decatur for 
Chicago. Each major employer's departure has a ripple effect 
through the small business and philanthropic communities.
    Small communities see this trend. The service disruptions 
dominate our news. There is no silver bullet. Increased 
collaboration is very much needed across industry, government, 
and communities is absolutely imperative.
    Some things for us to further talk about, and Ranking 
Member Murphy spoke of lowing the financial profession barriers 
to the profession. We believe that to be key. Increasing the 
number of pathways to accrue the necessary training and 
experience, modernizing the pilot training. All of this can be 
done and improve safety within the existing regulatory 
framework. Virtually every state has an airport that will face 
the loss of service in the coming years. Already, 3 dozen 
communities have lost air service. Another 2 dozen have lost 75 
percent. Unless we mitigate this crisis, the damage to our 
Nation's communities, our industry and small businesses will be 
devastating.
    Thank you again for including my perspective, and I look 
forward to answering any questions you may have. Thank you.
    Chairman KNIGHT. Thank you very much.
    Ms. Bartush, you are now recognized for 5 minutes.

               STATEMENT OF SARAH OBERMAN BARTUSH

    Ms. BARTUSH. Okay. Good morning, Chairman Knight, Ranking 
Member Murphy, and other esteemed members of Congress here 
today. It is a pleasure for me to be here.
    My name is Sarah Oberman Bartush, and I am from Camarillo, 
California. I have grown up in the aviation industry as my 
parents, Mark and Janie Oberman founded our business, Channel 
Islands Aviation, in 1976.
    Our business is unique in the fact that we operate an 
executive charter operation under our DBA CI Jets. We have a 
busy flight school where we train pilots professionally, and we 
also have a maintenance operation to maintain our fleet. The 
workforce shortages are deeply impacting our business.
    First off, our flight school does not have enough flight 
instructors. We currently have 115 active students with only 10 
flight instructors on staff. In the past 3 years, we have lost 
19 flight instructors to either corporate or regional airlines. 
Right now, we desperately need to hire, yet we are not getting 
any resumes in the door. We have a waitlist right now for 
flight students, 13 people long, so we desperately need to 
hire. I need to have at least three more full-time instructors 
on staff right now. If we are unable to find flight instructors 
in the future, we will not be able to sustain our flight 
training business.
    Another problem facing our flight school is that becoming a 
flight instructor is not a necessary step in a commercial 
pilot's career anymore. Historically, commercial graduates 
would go and flight instruct for a couple years before they 
move on to say a corporate position or a regional airline. 
However, right now, our graduates with as little as 200 hours 
of flight time are taking jobs flying as copilot in jets for 
charter operators. Just last week I got an email from a fellow 
operator on our field that operates a large fleet of business 
jets and he said that he had six position openings and they 
were looking to hire our new commercial graduates. So our 
graduates are looking at either flying the right seat of a jet 
or they are looking at flying for us in a small, single engine 
Cessna. And obviously, they are going to go fly something that 
is bigger and faster. So we are losing those opportunities just 
right in our flight school right there.
    The next issue that we are facing in our maintenance 
department is that we have been unable to hire and retain 
aircraft mechanics. We have been continuously hiring mechanics 
for the past 2 years, and due to the fact that we have such a 
workforce shortage with mechanics, our flight school has 
experienced many delays and flight cancelations due to the fact 
that we cannot get aircraft out of the shop. We have been 
operating sometimes with as little as only two mechanics on the 
floor, and we operate a fleet of 12 aircraft in our flight 
school, while also doing outside maintenance.
    Over in CI Jets, our executive jet charter division, we 
operate four jet aircraft and employ seven pilots. 
Traditionally, when a pilot chooses to go corporate or fly 
private aircraft, they maintain that course, or they might go 
for the airlines. And traditionally, they will actually retire 
in that position. However, right now we are seeing our 
corporate pilots take the plunge and go fly for the airlines 
because the packages and the sign-on bonuses and all the 
benefits for the airlines is so compelling that they are making 
a career change.
    In the past year, we have had two of our highest paid and 
most senior pilots give resignation to go fly for the major 
airlines. Both were making about $200,000 a year flying a $20 
million airplane all over the world to exotic destinations, so 
that has been a big challenge for us in losing pilots to the 
airlines. When we do lose a pilot, it is a financial burden to 
us because the training event to bring on a new pilot costs 
anywhere from $10,000 to $60,000, and so with the turnover and 
the continuous cost of training, it is really, really hard for 
us to sustain being in this business.
    It is really important right now to get the word out that 
it is a really good time to become a pilot. I mean, there are 
so many job opportunities out there and companies like mine 
could definitely benefit from that. But without enough flight 
instructors to train incoming pilots, it is going to be 
impossible to produce them. And without corporate pilots, many 
businesses that rely on corporate aviation as a means of 
conducting business and going to different locations, they are 
not going to have that option.
    So I really appreciate this topic being brought forth 
today, and I look forward to taking all of your questions. It 
is a pleasure being here. Thank you.
    Chairman KNIGHT. Thank you very much.
    Dr. Witcher, you have 5 minutes. We look forward to your 
testimony.

                    STATEMENT OF KEN WITCHER

    Mr. WITCHER. Thank you, Chairman Knight and Ranking Member 
Murphy, and members of the Committee. Thank you so much for 
allowing me to come here today to talk about this topic that is 
certainly very important to us. Aviation is in my blood as 
well, Mr. Knight, and this is an important topic to us at the 
university as well. I have had the chance for the last 5 years 
to lead the College of Aeronautics at the Embry-Riddle 
worldwide campus, and it is an exciting time to be in aviation.
    Embry-Riddle as a whole has been in this business for about 
90 years educating this workforce that we have out there. We 
offer degrees. We also offer professional education to 
companies out there as well that we are able to support as we 
move forward.
    The big picture, and I think you guys have captured this in 
your testimonies you had this morning and the testimonies from 
our previous Committee or panelists up here, is if you look at 
the research, going back as far as in the early 1980s, there 
was clear research that connected an economic impact to the air 
service of the community. So there is a connection here to the 
small businesses and to economic growth without a doubt.
    So what is happening with the industry today? And if you 
look at it from a global perspective, as the large 
manufacturers produce a forecast each year, they are saying in 
the next 20 years or so we are going to need about 790,000 
pilots globally. Here in the United States that would be about 
almost 200,000 pilots, and about 754,000 maintainers globally 
just to match the growth that is happening in the industry that 
was mentioned previously. That is a lot of folks, and these are 
skilled labor forces, so this is not just--there are really no 
nonskilled labor forces here in the area.
    So as we talk about this as a whole, let's come back to the 
pilot shortage in particular. And by the way, you mentioned a 
report that you got from the National Business Aviation 
Association. I think that one is an important one to pay 
attention to as well. The folks that they represent, about 97 
percent of their companies are small to medium businesses. As 
you are hearing up here today, that is a big impact out there, 
not just to the Boeings of the world and the Deltas of the 
world, but also to the small businesses that we have out there 
that we support.
    So the pilot shortage in particular, Sarah was just saying 
there is usually two tracts to become a pilot. One is through 
the military, of course. They produce about 1,000 pilots a 
year. They are growing as many of you might have heard just in 
the last week or two, that Secretary Wilson, Heather Wilson had 
mentioned that they were trying to grow I think 73 squadrons is 
what she was saying. So they are going to put a burden on that 
training pipeline into this that is usually typically supported 
this commercial world. And then there are the flight schools. 
And many of those flight schools are small businesses, but then 
there are flight schools that are larger. What you are hearing 
from Sarah in particular is what our flight schools are 
experiencing. So as the large organizations, the Deltas, 
Uniteds of this world are out there and they need resources, 
they need pilots, they have resources to attract that talent.
    If you look at pilot pay in the majors, over the last few 
years it has increased. I think that is a pretty good indicator 
of them trying to bring in good talent. Now, where do they take 
their pilots from? Well, they are taking their pilots from 
these corporate aviation organizations and from the regionals. 
And when we take pilots from the regionals, what are we doing? 
Well, we are reducing service. That was mentioned here by one 
of the other panelists. And it keeps going down until you get 
to this problem that Sarah very clearly identified, which is 
that CFI problem. And without the instructors, how do we 
educate and train the students and the pilots of the future? So 
that is where that problem really does kind of become a 
significant issue for all of us that are wanting to support the 
aviation industry.
    And that has two impacts on small business. Like I was 
mentioning, reduced services out there and then the things that 
Sarah identified, the ability to support these small flight 
training schools and those type of organizations that rely on 
this talent and this workforce.
    So the technician piece of this house is very similar. It 
has been identified by our first witness down there as well. If 
you look at just the United States, we are saying about 154,000 
or so. Some of the reports out there indicate that we will need 
that kind of talent. The interesting thing here though is that 
with the pilot problem, the pilot issue challenge that we are 
facing, there are a lot of people that want to be pilots. We 
heard that. And there are aircraft out there to do that. What 
we are missing is that CFI part of this.
    In the technician piece of the house it is a little 
different. We have got capacity in those schools and we have 
got to figure out a way to get that talent in there and through 
that capacity the technician problem could be as big to small 
businesses as we heard earlier with some of the MROs as the 
pilot shortage is.
    So just to kind of summarize this thing, there are 
challenges out there without a doubt. There are a lot of people 
out there, including up here on the Hill, that are working very 
hard to solve those challenges. And one of those things that we 
have been able to get very excited about recently is this 
opportunity to look at our career skill bridges that happen out 
there. It is where we take and we are separating military folks 
and we are bringing them in with certain types of training and 
getting them into these areas. In particular, these areas where 
they are wanting this 3 to 5 years' experience in these skill 
sets.
    So a lot of opportunity out there. Some answers to some of 
these challenges, and I look forward to your questions. Thank 
you.
    Chairman KNIGHT. Very good. We will go through the 
Committee up here and ask a few questions. We try to keep our 
questions to 5 minutes, too, and if we can, we come back for 
another round.
    But I have got a question kind of for the panel. We see 
that if there is a pilot shortage and there is an instructor 
shortage, which I firmly agree that there is, but the 
technician shortage of maintaining the aircraft, of making sure 
that we are putting safe aircraft in the air, where are we 
looking to get them? So if I go to Embry-Riddle and I get 
pilots out of there or I get them somewhere else across the 
country, where are I getting my maintainers? Maybe Mr. Levanto, 
you can help me with that. I am betting some come from the 
military, so I am going to take that one kind of off the board. 
But where are the rest coming?
    Mr. LEVANTO. Sure. Well, answering that question requires 
very briefly understanding the different types of individuals 
that perform work in maintenance facilities. So certificated 
mechanics, A&P, airframe and power plant mechanics attract the 
most attention and are the gold standards. They bear individual 
certifications from the FAA to perform work on civil aircraft 
and they have a variety of privileges and responsibilities that 
go along with that. There are also individuals holding 
repairman certificates who have not necessarily gone through 
the same pathway to get to their certification, but they have a 
specialized skill that makes them particularly valuable and 
effective in performing work on a civil aircraft. And they get 
their certificate under their employer's endorsement. And it is 
tied to that employer and tied to the specific work that they 
perform in order to be a part of the civil aviation landscape. 
Those certificated individuals are supported by noncertficated 
technicians who have knowledge and skills, and in fact, are 
required to have knowledge and skills and access to necessary 
data to perform work and they do so in coordination with their 
certificated coworkers who provide supervision support and sign 
off on work for return to service. So understanding all the 
pieces of that pie show that there is actually a variety of 
pathways through which individuals can get into a maintenance 
environment.
    Chairman KNIGHT. So we are looking at maybe four or five 
steps of people that work on aircraft for their certain skill 
level, their certain certification, and their certain education 
that they have in that arena?
    Mr. LEVANTO. Yes, sir.
    Chairman KNIGHT. Are we finding that the--I do not want to 
say the lower step, but the step that is not certified, that 
is, as you say, the repairman that goes in there, is working on 
a specific aircraft and a specific place, like maybe Ms. 
Bartush's business, is there a huge shortage there or is that 
kind of an on-the-job training of we are trying to grab people 
and they are working for us and we are putting them into this 
position?
    Mr. LEVANTO. Actually, in many ways that is a resource we 
can take further advantage of. Aviation businesses tend to 
focus on certificated personnel, and there is some sense behind 
that. But those are the individuals that are getting those gold 
standard skills that are then getting poached out of their 147 
programs or they are experienced to go work in other 
industries. The groups that we have worked with, the 
organizations that have had a lot of success are those who have 
developed robust internal training to turn noncertificated 
personnel who are eager to learn, have the character necessary 
to show up to work every day and perform exemplary, and growing 
them through the experience requirements of part 65 into 
individuals eligible to get their personal certification. And a 
great example of that from Alaska, Warbelow's Air actually has 
a helper program built into their training program which they 
are required to have under their own certification, and they 
have been growing technicians over the course of 3 to 5 years 
into individuals who are ready to take their tests and take 
their own A&P certification.
    Chairman KNIGHT. Okay. So let me expand this out a little 
bit.
    In my district, we build a lot of airplanes. We have a lot 
of aviation in my district. We are doing some innovative things 
over the next 20, 30, 50 years, and we needed some folks. So we 
built a program though our junior college. It is called the 
AFAB Center, and it is for basically basic fabrication of 
airplanes. Need to be able to show up, need to be able to pass 
a urine test because it is a DOD job, and need to be able to 
have a basic understanding of schematics. And we have a very 
robust group there that is being hired now by many of the 
companies at about a 97 percent clip. So if you make it through 
this program, you are probably going to be hired, and it is 
going to be a good job and good benefits and all of that.
    I think, because of the economy and just kind of follow me 
here, we need to look at some of these kind of connections to 
our junior colleges. We all have junior colleges. We all have 
tech schools. We all have universities in our districts or in 
our state that are very willing to open up certified programs. 
We all know about the 4-year degrees, but we also know that we 
need people in jobs to put the square peg in the square hole 
quicker sometimes. And that means getting the certification 
that you need, getting the training that you need, and getting 
into the job. So I think that that is part of our goal in 
Congress is making sure that we are getting the workforce in to 
work. And that is obviously a goal here at the Small Business. 
We want the opportunities to be filled by folks that can take 
advantage.
    So I will come back to me, but I would like to go to the 
Ranking Member, Ms. Murphy.
    Ms. MURPHY. Thank you, Mr. Chairman.
    Just as Mr. Chairman said, I am very interested in seeing 
that we get folks into jobs, but particularly veterans. And so 
I have a particular interest in the Department of Defense Skill 
Bridge program that you mentioned. Specifically, we just were 
able to pass into law some changes to the Transition Assistance 
program to enable greater emphasis on educating service members 
as they transition into civilian life about career 
opportunities, career and technical training, education 
options, as well as entrepreneurship potential. So hopefully, 
that will be an opportunity to highlight a program like the 
Skill Bridge program.
    But I was wondering, you know, is it for all types of 
aviation skills, not just pilots? Also, what kind of throughput 
are you currently seeing? And then finally, the witnesses have 
talked a lot about certification. How do we translate military 
experience into civilian certification in a way that is 
portable?
    Mr. WITCHER. Yeah. Thanks, Ms. Murphy. That is a great 
question. And you are right. The Skill Bridge program is part 
of the transitioning service member program. It is approved. It 
is very exciting. And what we are looking for, as Mr. Knight 
mentioned, we need skill sets. We need the square peg in the 
square hole here. We do not necessarily need a 4-year degree, 
although that is a valuable product in this business. But we 
need to get the skillsets out there. So we have these folks 
that spent 3 to 5 to 7 to 20 years in some cases serving in the 
military, working on these high performance aircraft. Why could 
we not take them out and fill some of this need that we have 
out there. And in particular, a lot of the smaller businesses 
that are out there that are in the MO world, they are looking 
with somebody with 3 to 5 years' experience because, as we 
mentioned, that cost to train somebody internally. So somebody 
that comes with experience would be a big benefit. These are 
those folks. And to Mr. Knight's comments there, they can pass 
a drug test typically, and they know how to show up for work 
showing out of the service. So these are the folks that would 
meet that bill.
    Now, there is no direct correlation, unfortunately, from 
their experiences in the service to the certificate from the 
FAA, but that is not a game killer there. There are still some 
opportunities there. The part 65 that was mentioned earlier is 
a way that we can take that skillset if they have enough to 
pass, to meet the experience criteria, we can provide the 
education part of this and very clearly close that gap.
    But even more important than that, what we are hearing from 
the industries that we are talking to now about starting this 
career skills gap program with the A&P mechanics is that they 
do not necessarily need the A&P certificate. They are looking 
for the capability, the skillset that is coming out of there. 
So we can quickly cross that gap with some of these processes, 
some of these programs, such as this transition program that 
you mentioned. So, and in some cases, they are not even needing 
folks that have experience on aircraft. They want somebody that 
is mechanically inclined. Some of these large manufacturers--
and I apologize. I am under an NDA. I need my job. So I cannot 
tell you exactly who we were talking to there right now. I 
would love to later. But these companies, large companies, are 
seriously looking for any type. They are getting kind of 
desperate to look for bus drivers in some cases. Not anything 
wrong with bus drivers. But they are looking for a skillset 
that has a capability out there. So anybody coming out of a MOS 
or an AFIC that has a mechanical inclination, they believe with 
us, our help and their training programs, we can make them a 
productive member to meet this gap that you so clearly 
identified.
    Ms. MURPHY. That is great. Thank you so much for that 
thorough answer.
    Mr. Levanto, I had a question on a separate issue. You 
know, I understand that there have been concerns about a 
growing share of aircraft maintenance being offshored to repair 
facilities located overseas. Does competition from the overseas 
repair facilities affect your industry's ability to retain 
employees and attract new employees to the maintenance 
workforce?
    Mr. LEVANTO. Thank you for that question. It is important 
to remember that maintenance is taking place all over the 
world, and in fact, it is a requirement that facilities bearing 
FAA certification are available to perform work on U.S. flagged 
aircraft wherever they go. In many cases, the facilities that 
are performing work overseas are actually connected to our own 
by U.S. companies. So in a way we have been able to educate a 
lot over the past decade or so about the fact that so-called 
outsourcing or offshoring actually ties into the very capable 
network of American businesses that are performing work on 
aircraft. And the fact of the matter is that those 
organizations that are performing work overseas, just like here 
in the United States, are meeting equivalent standards of 
safety that are overseen by the FAA often in partnership with 
its bilateral partners or other civil aviation authorities. 
That means that the individuals required to work there need to 
have the same kinds of technical knowledge and skill that we 
need here. And training and program resources that help grow 
that technician pool wherever they are located, whether they 
are coming from the military or civilian service or education, 
is going to be good for all those organizations, particularly 
by creating flows of personnel that can support needs for our 
aircraft, our U.S. flight aircraft wherever they go.
    Ms. MURPHY. Thank you.
    I yield back.
    Chairman KNIGHT. Thank you.
    Now I would like to recognize Ms. Clarke from the great 
State of New York.
    Ms. CLARKE. Thank you very much, Mr. Chairman. And I thank 
our Ranking Member.
    Dr. Witcher, I would like to just ask you a couple of 
questions because I am I guess a bit concerned about how we 
view sort of the pipeline to getting the 21st century workforce 
in aviation that we need and sort of build the momentum for 
growth in terms of aviation occupations being viable into the 
next century. I happen to come from New York City where we 
actually have an aviation high school. And I was wondering 
whether you are seeing similar types of high schools around the 
Nation that can provide that pipeline that we are looking for. 
And I also wanted to add that I would like to hear a bit more 
about how we make it accessible to minority and disadvantaged 
populations that have historically had a difficult time 
bridging the gap from education to employment. How can we 
better engage and prepare these communities to be pilots or 
aviation mechanics?
    Mr. WITCHER. I thank you so much for that question. And it 
is a great question. The good news is right now the aviation 
industry is an exciting industry. I mean, we have got the 
coolest toys for sure. We have rockets that are coming back. 
First stages are coming back here. We have the UAS industry, 
the drone industry that has got a completely different 
demographic that usually we do not have a real valuable 
conversation in aviation. Now we are able to break into that 
demographic and have a better conversation about the future of 
aviation. So it is exciting. But you are right. We have got to 
start early. There is a lot of competition for the talent that 
we need in this aviation industry out there to go into other 
industries, like the tech industry, of course, which certainly 
needs the talent as well. But we have got to fight for that and 
ensure that these young folks in the high school programs, and 
there are many high school programs around the country, and my 
understanding is they are very successful. Understand that 
there are great opportunities coming in.
    An interesting thing is in the pilot area, what we see 
today, and this is different than just a few years ago, because 
of what we are talking about up here and the opportunity for 
jobs, not only will we have young high school graduates come to 
us and say we want to be a pilot and let's go, but also their 
parents come to us. And before, it was hard to convince their 
parents that we had a future. There were not a lot of jobs. The 
pay was not quite as good as it is today. It had a little 
slump. But today that is completely different. A lot of 
excitement out there. Our challenge is how do we get this 
excitement into a typically nonaviation demographic? Things 
like this new technology, unmanned systems, when I take that to 
school, I love to have that conversation because they look at 
that opportunity in aviation and it is not just, you know, the 
pilots that they have seen, the stereotypical pilot that they 
have seen or stereotypical maintainer. Anybody can get excited 
about this technology. There are no stereotypes around it. We 
are leveraging tools like that to get into that level of the 
education system to try to get folks excited about how it is 
coming forward.
    We have work to do. We have got to be able to, especially 
as an aviation aerospace educator, to get into some of these 
communities that we historically have not gotten into. Things 
like online education or given this opportunity, to in there at 
a cost, that is that opens up this opportunity of aviation 
education to a completely different market, and we are excited 
about that. Great question. Thank you.
    Ms. CLARKE. Absolutely. Because I think it is something 
that can be, you know, can be prompted in urban, as well as 
rural communities where young folks are looking for 
opportunities, but they are not accessible. I just think about 
unfortunately these young people who have been breaching 
security and jumping in and actually piloting aircraft. And 
they have learned some of their skill online. And 
unfortunately, it was criminal what they did, but it indicates 
to me that there are ways that we can do distance learning. 
There are ways that we can promote to nontraditional 
communities to be able to get that workforce of the 21st 
century. So I look forward to more of a conversation in this 
space because I think it is really important that we not throw 
our hands up and we not believe that we are limited in terms of 
where we can access the talent to be able to reinvigorate the 
industry.
    I yield back, Mr. Chairman.
    Chairman KNIGHT. Thank you very much.
    I think this is a good part of the conversation, too. You 
know, we all go to schools and we all talk to young people and 
see what their dreams are these days. And the UAS kind of 
explosion over the last 10 years has really invigorated a lot 
of young people. We have a robotics team in my district that 
started about 12 years ago. I was there when it started and it 
was 100 percent boys. Today, it is 47 percent girls. So you can 
see that there is kind of a shift in maybe looking at a career 
that maybe 12 years ago the girls did not think that they could 
do that or they were not looking at that.
    One of the things that Ms. Murphy brought up was military 
education. And I think that we have talked about this until we 
are blue in the face of how do we get people in the military 
that do something very well in the military that works in the 
civilian world, and how do we transfer them from the military 
life of not wearing camo to wearing jeans and getting paid? So 
we would love to hear great ideas on that. We have tried to do 
that. I am sure that at the state level everybody has tried to 
do that. I know that Florida is very involved. California is 
involved. And New York. And all of the states have tried to do 
it at a little bit of a level, but I think the Federal 
Government has really got to be involved. That if you got 
somebody in there and they are working on helicopters and they 
want to transfer out when they ETS from the military, why would 
we not want them to work on helicopters? That is exactly what 
we want them to do. So those are always ideas that we are 
trying to kind of filter down and work on, but literally, the 
military has got to give us some pathway, too. They really do. 
So that is not a cut on anybody. It is just maybe a little bit 
more homework for us.
    And then the last thing I would like to bring up because I 
think it is going to cross is aviation in this country, it is 
the absolute safest thing I do to get to work. I was telling my 
wife, my 3-hour drive to LAX is by far the most dangerous thing 
I do all day. And I only live 60 miles from LAX, so you can see 
what the traffic is in Southern California. Once I am on the 
airplane, I am safe. I am good to go. It is the safest mode of 
travel. We are very proud of what happens in America, and I 
think that Ms. Murphy said something in her opening statement, 
we do not want anything to affect the safety of travel, either 
at the GA locations or at something like LAX. We know that when 
we get in an airplane, we are in a very, very safest mode of 
travel and we are going to get to our destination. And that is 
a testimony to not only what you folks do, what the airlines 
do, and what the mechanics to keep the airplanes in the air do.
    And then the last thing is cool toys. Boy, we have really 
got a hit on that. I just firmly believe that. The kids that 
are going into computers and things like that today, and I know 
that there is high pay in a lot of these areas, but literally, 
these are the cool toys. These are the coolest things you can 
possibly do is fly an airplane. Teach somebody to fly an 
airplane. It really is, not just because I grew up around it, 
but it just is. And how we motivate those kids to say this is 
an opportunity, and how do we get to kids that are in the inner 
city to do that and how do we break through the gender gap is 
difficult, too. But we have got to do that. And I think that we 
are starting to. And I think the UAS explosion, the drone 
explosion is starting to get people involved. You can go out 
and buy a cheap, cruddy drone for 60 bucks and fly it and see, 
you know, kind of characteristics of flight and things like 
that. And it gets them involved. And that is a good thing. That 
is a good thing.
    So, okay, Ms. Murphy, how are we?
    Ms. MURPHY. We are good.
    Chairman KNIGHT. Okay. All right. Does anyone want to react 
to my statements or--that is very good. Thank you, Vivian. I 
was just kind of rambling, but I figured that everybody was 
nodding their head and I was going down the right road.
    Go ahead, Mr. Levanto.
    Mr. LEVANTO. If I may just briefly second you point, and 
particularly in getting individuals out of the military where 
we can take advantage of these noncertificated pathways where 
they have valuable specialized skills that may not meet the 
full criteria for an A&P certificate, but we have so many ways 
to get them into our workforce. And the way this Committee can 
help with that, not just for the military but for all personnel 
looking to get employment in small aviation businesses, is by 
helping to stimulate resources, begin conversations, create 
connections and collaboration. And I do want to share that you 
can actually help us with that outside of your Committee work 
today if you support the FAA bill. It actually has a program 
that is supported by just about every organization that is in 
this room to pilot an AMT grant program that would facilitate 
local community engagement and collaboration to help with 
veteran transitions and getting personnel in all different 
types of backgrounds into technician careers. And I would like 
to implore you to support us in that effort.
    Chairman KNIGHT. I think veteran transition is something 
that everyone agrees that that is a big part of how we make 
sure that our veterans are getting into work cuts down on the 
problems that we see from veterans. We are losing 21 veterans a 
day to suicide. All of those issues are the bigger problem 
here. But the solution is getting them into a job as fast as 
possible and getting them into transitioning into civilian 
life.
    So I agree with that. And I think that, you know, when I 
was in the military, I was a track systems mechanic. That does 
not really transition over to a helicopter mechanic or an 
airplane mechanic, but it is a mechanical skill that I acquired 
in the military that probably, because I had some skills, you 
could transition into that or you could put into a training 
program. Boy, we talk about this and talk about this, and I 
think there are little incremental changes. But we have really 
got to have bigger changes. I know the TAPS program and things 
like that are good programs and they start to move our young 
people from ETS into work, but boy, we have really got to have 
a good connection to that. And so, we will look into that a lot 
closer.
    Okay. I think we are set unless anyone else has anything to 
say. We are a free-flowing Committee in here. We do whatever 
the heck we want till the Chairman comes in and says do not do 
that.
    Mr. LENSS. Mr. Chairman, I was just going to add on the 
cool toys something to be aware of is our regional airline 
industry, as well as even the major carriers now, are doing a 
significant outreach to middle schools, high schools, and 
bringing in some cases simulators out to the schools so the 
kids get that love of aviation bug instilled early. And so 
there is some active work being done within the industry, but 
again, I think that is a program we can take even further with 
continued industry collaboration with government and 
communities.
    I would also point out that the need to reduce the cost of 
training, particularly flight training in getting at some of 
the nontraditional communities is critically important, and the 
need for more government assistance in the form of low-interest 
loans, loan forgiveness programs, those sorts of things are 
desperately needed as well to reach more kids.
    Chairman KNIGHT. Yeah, it is a good point. I can tell you 
when I was working on my private pilot's license at 16 years 
old, I was funding it by mowing lawns. You could not do that 
today. So it is a great point. And it is a difficult point, 
too.
    Ms. BARTUSH. Mr. Chairman, I wanted to add that we are a VA 
approved school, and about 30 percent of our flight training 
business is for veterans. But the funding that they receive is 
not enough. They are not funded for the private pilot 
certificate. They have to complete that on their own, so that 
is a barrier to entry of $15,000 to $20,000. And then from 
other the program setup only gives them $10,000 per academic 
year towards their flight training. And they are looking at 
anywhere from $75,000 to $100,000 in investment of their 
training. So we need to figure out a way to get them more 
funding because they have earned that funding.
    Chairman KNIGHT. I absolutely agree.
    Okay. Well, I think it is evident from the testimony we 
have heard today that small businesses are suffering from this 
labor shortage and bear a disproportionate burden of losses. 
Without highly skilled and qualified employees, small 
businesses operating flight schools, maintenance and repair 
shops, and a host of other essential services critical to the 
aviation sector will disappear. Without these small firms, 
there can be no aviation industry. Without a healthy aviation 
industry, the U.S. economy suffers.
    I look forward to continuing this dialogue with our 
witnesses, learning all that we can do to combat this shortage. 
And thank you for your testimony today.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Without objection, so ordered.
    This hearing is now adjourned.
    [Whereupon, at 11:01 a.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
